REWARDS PREFERRED MASTERCARD LEVEL I
REWARDS PREFERRED MASTERCARD LEVEL II
REWARDS PREFERRED MASTERCARD LEVEL III
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Rewards Preferred MasterCard Level I

2.90%

Introductory APR for a period of six billing cycles.

After that your APR will be
Rate.

9.90%

. This APR will vary with the market based on the Prime

Rewards Preferred MasterCard Level II

5.90%

Introductory APR for a period of six billing cycles.

After that your APR will be
Rate.

12.90% . This APR will vary with the market based on the Prime

Rewards Preferred MasterCard Level III

8.90%

Introductory APR for a period of six billing cycles.

After that your APR will be
Rate.
APR for Balance Transfers

15.50% . This APR will vary with the market based on the Prime

Rewards Preferred MasterCard Level I

5.90%
Rewards Preferred MasterCard Level II

8.90%
Rewards Preferred MasterCard Level III

11.90%
APR for Cash Advances

Rewards Preferred MasterCard Level I
2.90% Introductory APR for a period of six billing cycles.
After that your APR will be 9.90% . This APR will vary with the market based on the Prime Rate.
Rewards Preferred MasterCard Level II
5.90% Introductory APR for a period of six billing cycles.
After that your APR will be 12.90% . This APR will vary with the market based on the Prime Rate.
Rewards Preferred MasterCard Level III
8.90% Introductory APR for a period of six billing cycles.
After that your APR will be 15.50% . This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any
interest on purchases if you pay your entire balance by the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Foreign Transaction Fee

1.00% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Up to $25.00
None
Up to $25.00
SEE NEXT PAGE for more important information about your account.

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Loss of Introductory APR: We may end your Introductory APR for purchases and cash advances and apply the prevailing non-introductory APR
if you are 60 days late in making a payment.
Effective Date:
The information about the costs of the card described in this application is accurate as of August 1, 2015.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee

$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days
late in making a payment.
$25.00 or the amount of the required minimum payment, whichever is less.

i002513
REWARDS PREFERRED
MASTERCARD LEVEL I

REWARDS PREFERRED
MASTERCARD LEVEL II

REWARDS PREFERRED
MASTERCARD LEVEL III

DTXYD2-HR
CCM003
MXC403

APPLICATION AND
SOLICITATION DISCLOSURE

© CUNA Mutual Group 2009, 10, 12 All Rights Reserved

